             Offices of
         Inspector General


           Department of the Treasury
      Federal Deposit Insurance Corporation
Board of Governors of the Federal Reserve System
    and Consumer Financial Protection Bureau



      Status of the Transfer of
Office of Thrift Supervision Functions


                   OIG-13-054
                   AUD-13-008
                  2013-AE-B-014

                September 26, 2013
Contents


Audit Report

  Results of the Joint Review ........................................................................         2

Appendices

  Appendix    1:      Joint Reports Issued Pursuant to Section 327 ........................                    5
  Appendix    2       FRB Management Comments ...............................................                  6
  Appendix    3:      Major Contributors to This Report .........................................              7
  Appendix    4:      Report Distribution ..............................................................       8

Abbreviations

  FDIC                Federal Deposit Insurance Corporation
  FRB                 Board of Governors of the Federal Reserve System
  OCC                 Office of the Comptroller of the Currency
  OIG                 Office of Inspector General
  OTS                 Office of Thrift Supervision
  Plan                Joint Implementation Plan
  Treasury            Department of the Treasury




                      Status of the Transfer of Office of Thrift Supervision Functions                     Page i
         This Page Intentionally Left Blank.




Status of the Transfer of Office of Thrift Supervision Functions   Page ii
                     Offices of Inspector General


                       September 26, 2013

                       Ben S. Bernanke, Chairman
                       Board of Governors of the Federal Reserve System

                       Martin J. Gruenberg, Chairman
                       Federal Deposit Insurance Corporation

                       Thomas J. Curry, Comptroller of the Currency
                       Office of the Comptroller of the Currency

                       This report presents the results of our offices’ sixth joint review of
                       the transfer, pursuant to Title III of the Dodd-Frank Wall Street
                       Reform and Consumer Protection Act (Dodd-Frank Act or the Act),
                       of the functions, employees, funds, and property of the former
                       Office of Thrift Supervision (OTS) to the Board of Governors of the
                       Federal Reserve System (FRB), the Federal Deposit Insurance
                       Corporation (FDIC), and the Office of the Comptroller of the
                       Currency (OCC). In accordance with Title III of the Act, the transfer
                       occurred in July 2011.

                       Our joint reviews are mandated by Section 327 of Title III. During
                       our first review, we determined the Joint Implementation
                       Plan (Plan) for the transfer prepared by FRB, FDIC, OCC, and OTS
                       generally conformed to relevant Title III provisions. 1 Since then, in
                       accordance with Section 327, we completed five joint reviews to
                       report every 6 months on the status of the Plan’s implementation.
                       We jointly reported that the Plan has been implemented for the
                       most part, as the functions, people, and property of OTS were


1
 We noted that the plan did not address the prohibition in Title III against the involuntary separation or
the involuntary reassignment of a transferred OTS employee outside the employee’s locality pay area for
30 months (except under certain circumstances). In response, the agencies amended the plan in April
2011.


                       Status of the Transfer of Office of Thrift Supervision Functions            Page 1
                     transferred to FRB, FDIC, and OCC in accordance with Title III and
                     the Plan. 2 We also reported that procedures and safeguards were in
                     place at FDIC and OCC as outlined in the Plan to ensure that
                     transferred employees are not unfairly disadvantaged, a key
                     requirement in Title III. However, there remain certain open items
                     and time-limited provisions impacting former OTS employees that
                     we continue to monitor. Appendix 1 lists our prior reports on the
                     transfer of OTS functions.

Results of the Joint Review
                     For this 6-month period, we are reporting on one item—the
                     rulemaking for FRB’s supervisory assessments pursuant to section
                     318 of the Dodd-Frank Act. As part of our work, we interviewed
                     FRB Division of Banking Supervision and Regulation senior
                     supervisory financial analysts and an FRB Legal Division attorney
                     and reviewed relevant documentation. Consistent with our
                     objective, we did not assess FRB’s overall internal control or
                     management control structure, obtain data from its information
                     systems, or assess the effectiveness of its information system
                     controls. We conducted our fieldwork at FRB in Washington, DC,
                     from July to August 2013.

                     As previously reported, for savings and loan holding companies and
                     bank holding companies with consolidated assets of $50 billion or
                     more, and nonbank financial companies that FRB is required to
                     supervise pursuant to section 113 of the Dodd-Frank Act, FRB is to
                     collect assessments, fees, or other charges equal to the expenses
                     FRB estimates are necessary or appropriate to carry out its
                     supervisory and regulatory responsibilities. To address this
                     requirement, FRB’s notice of proposed rulemaking for comment on
                     the assessments, fees, and other charges was published in the
                     Federal Register on April 18, 2013.3 The comment period closed
                     June 15, 2013. FRB’s final rule was published in the Federal




2
 No OTS employees transferred to FRB under Title III.
3
 78 Fed. Reg. 23162, Supervision and Regulation Assessments for Bank Holding Companies and
Savings and Loan Holding Companies With Total Consolidated Assets of $50 Billion or More and
Nonbank Financial Companies Supervised by the Federal Reserve (Apr. 18, 2013).


                     Status of the Transfer of Office of Thrift Supervision Functions          Page 2
                      Register on August 23, 2013.4 The initial collection of
                      assessments, fees, and other charges is to begin in the fourth
                      quarter of calendar year 2013. Accordingly, FRB’s implementation
                      of section 318 of the Dodd-Frank Act is completed.

                      We provided a draft of this report to FRB, FDIC, and OCC. In a
                      written response, FRB stated that it has reviewed the report and
                      agrees with the conclusions regarding the assessments, fees, and
                      other charges required pursuant to the Dodd-Frank Act. We
                      received no written comments from FDIC; however, FDIC agreed
                      with the conclusions in the report that they implemented the
                      actions required to date in the Plan. OCC reviewed the report and
                      had no comments. FRB’s written response is included in this report
                      as appendix 2.

                      Please be advised that we plan to complete one more joint review
                      under Section 327. As part of that joint review, we plan to assess
                      the status of the safeguards accorded to transferred OTS
                      employees.

                      We conducted this performance audit in accordance with generally
                      accepted government auditing standards. Those standards require
                      that we plan and perform the audit to obtain sufficient, appropriate
                      evidence to provide a reasonable basis for our findings and
                      conclusions based on our audit objective. We believe that the
                      evidence obtained provides a reasonable basis for our findings and
                      conclusions based on our audit objective.

                                                        *******

                      We appreciate the courtesies and cooperation provided to our
                      staffs during the audit. If you wish to discuss the report, you may
                      contact Marla A. Freedman, Assistant Inspector General for Audit,
                      Treasury Office of Inspector General (OIG), at (202) 927-5400;
                      E. Marshall Gentry, Assistant Inspector General for Evaluations,
                      FDIC OIG, at (703) 562-6378; or Melissa M. Heist, Associate


4
 78 Fed. Reg. 52391, Supervision and Regulation Assessments for Bank Holding Companies and
Savings and Loan Holding Companies With Total Consolidated Assets of $50 Billion or More and
Nonbank Financial Companies Supervised by the Federal Reserve (Aug. 23, 2013) (to be codified at
12.C.F.R. Part 246).


                      Status of the Transfer of Office of Thrift Supervision Functions        Page 3
                    Inspector General for Audits and Evaluations, FRB OIG, at
                    (202) 973-5024. Major contributors to this report are listed in
                    appendix 3.




/s/                             /s/                                       /s/

Eric M. Thorson                 Jon T. Rymer                             Mark Bialek
Inspector General               Inspector General                        Inspector General
Department of the               Federal Deposit Insurance                Board of Governors of the
Treasury                        Corporation                              Federal Reserve System
                                                                         and Consumer Financial
                                                                         Protection Bureau




                    Status of the Transfer of Office of Thrift Supervision Functions           Page 4
Appendix 1
Joint Reports Issued Pursuant to Section 327




Review of the Joint Implementation Plan for the Transfer of Office
of Thrift Supervision Functions; OIG-11-064, Department of the
Treasury (Treasury) Office of Inspector General (Treasury OIG);
FRB OIG 2011-02, Board of Governors of the Federal Reserve
System and Consumer Financial Protection Bureau OIG (FRB OIG);
EVAL-11-002, Federal Deposit Insurance Corporation OIG (FDIC
OIG) (Mar. 28, 2011)

Status of the Transfer of Office of Thrift Supervision Functions,
OIG-11-109, Treasury OIG; FRB OIG 2011-04, FRB OIG;
EVAL-11-005, FDIC OIG (Sep. 28, 2011)

Status of the Transfer of Office of Thrift Supervision Functions:
OIG-12-046, Treasury OIG; FRB OIG 2012-01, FRB OIG;
EVAL-12-004, FDIC OIG (Mar. 21, 2012)

Status of the Transfer of Office of Thrift Supervision Functions;
OIG-12-075, Treasury OIG; FRB OIG 2012-09, FRB OIG;
AUD-12-015, FDIC OIG (Sep. 26, 2012)

Status of the Transfer of Office of Thrift Supervision Functions;
OIG-13-035, Treasury OIG; 2013-IE-B-003, FRB OIG; AUD-13-005,
FDIC OIG (Mar. 27, 2013)




Status of the Transfer of Office of Thrift Supervision Functions   Page 5
Appendix 2
FRB Management Comments




Status of the Transfer of Office of Thrift Supervision Functions   Page 6
Appendix 3
Major Contributors to This Report




Board of Governors of the Federal Reserve System and Consumer
Financial Protection Bureau Office of Inspector General (OIG)

    Kyle Brown, OIG Manager
    Jonathan Park, Auditor and Project Lead

Federal Deposit Insurance Corporation OIG

    A. Michael Stevens, Evaluations Manager
    Travis Sumner, Auditor

Department of the Treasury OIG

    Susan Barron, Audit Director
    Alicia Weber, Audit Manager
    John Tomasetti, Auditor-in-Charge
    James Lisle, Referencer




Status of the Transfer of Office of Thrift Supervision Functions   Page 7
Appendix 4
Report Distribution




Board of Governors of the Federal Reserve System

    Chairman

Federal Deposit Insurance Corporation

    Chairman

Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




Status of the Transfer of Office of Thrift Supervision Functions   Page 8
